Audit Report




OIG-13-014
Audit of the Financial Management Service’s Fiscal Years 2012
and 2011 Schedules of Non-Entity Government-Wide Cash
November 16, 2012




Office of
Inspector General
Department of the Treasury
                                            DEPARTMENT OF THE TREASURY
                                                   W ASHINGTON, D.C. 20220
            `

     OFFICE OF                                      November 16, 2012
INSPECTOR GENERAL




            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           BUREAU OF THE FISCAL SERVICE

            FROM:                       Michael Fitzgerald
                                        Director, Financial Audits

            SUBJECT:                    Audit of the Financial Management Service’s
                                        Fiscal Years 2012 and 2011 Schedules of Non-Entity
                                        Government-Wide Cash


            I am pleased to transmit the attached audited Financial Management Service’s
            (FMS) Fiscal Years 2012 and 2011 Schedules of Non-Entity Government-Wide
            Cash (Schedules). Under a contract monitored by the Office of Inspector General,
            KPMG LLP, an independent certified public accounting firm, performed an audit of
            the Schedules. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards; applicable provisions of
            Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
            for Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit
            Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial
                        Reporting; and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                    •   the Schedules present fairly, in all material respects, the balance of FMS’
                        Non-Entity Government-Wide Cash as of September 30, 2012 and 2011,
                        in conformity with U.S. generally accepted accounting principles,
                    •   certain deficiencies in internal control over financial reporting that were
                        considered collectively to be a significant deficiency1 (described below),
                        and


            1
              A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
            less severe than a material weakness, yet important enough to merit attention by those charged
            with governance.
Page 2


      •   no instances of reportable noncompliance with laws and regulations tested.

KPMG LLP concluded that FMS’ information technology general controls do not
provide reasonable assurance that: (1) an adequate security management program is
in place; (2) access to computer resources (i.e., data, equipment, and facilities) is
reasonable and restricted to authorized individuals; (3) changes to information
system resources are authorized and systems are configured and operated securely
and as intended; (4) incompatible duties are effectively segregated; and
(5) contingency planning protects information resources, minimizes the risk of
unplanned interruptions and provides for recovery of critical operations should an
interruption occur. Collectively the conditions observed and reported on could
compromise FMS’ ability to ensure security over sensitive financial data related to
Government-Wide Cash and the reliability of key systems.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit performed in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the Schedules or conclusions about the effectiveness of internal control
or compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated November 14, 2012, and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.


Attachment

cc:   Richard L. Gregg
      Fiscal Assistant Secretary
                 U.S. DEPARTMENT OF THE TREASURY
                 FINANCIAL MANAGEMENT SERVICE

Independent Auditors’ Reports and Schedules of Non-Entity Government-Wide Cash

                         September 30, 2012 and 2011
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE



                                         Table of Contents



                                                                            Page

Independent Auditors’ Report                                                   1

Independent Auditors’ Report on Internal Control Over Financial Reporting      2

Independent Auditors’ Report on Compliance and Other Matters                   6

Schedules of Non-Entity Government-wide Cash                                   7

Notes to the Schedules of Non-Entity Government-wide Cash                      8

Attachment – Management’s Response                                            10
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service (formerly Financial Management Service):

We have audited the accompanying Schedules of Non-Entity Government-Wide Cash (GWC) of the U.S.
Department of the Treasury’s Financial Management Service (FMS) as of September 30, 2012 and 2011
(hereinafter referred to as the Schedules). These Schedules are the responsibility of FMS management. Our
responsibility is to express an opinion on these Schedules based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the Schedules are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
FMS’ internal control over financial reporting related to GWC. Accordingly, we express no such opinion.
An audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedules, assessing the accounting principles used and significant estimates made by management, as well
as evaluating the overall Schedule presentation. We believe that our audits provide a reasonable basis for
our opinion.

In our opinion, the Schedules referred to above present fairly, in all material respects, the balance of FMS’
Non-Entity Government-Wide Cash as of September 30, 2012 and 2011 in conformity with U.S. generally
accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated November 14,
2012, on our consideration of FMS’ internal control over financial reporting related to GWC and our tests
of its compliance with certain provisions of laws and regulations related to GWC. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 14, 2012




                                                                  1
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service (formerly Financial Management Service):

We have audited the Schedules of Non-Entity Government-Wide Cash (GWC) of the U.S. Department of
the Treasury’s Financial Management Service (FMS) as of September 30, 2012 and 2011 (hereinafter
referred to as the Schedules), and have issued our report thereon dated November 14, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for establishing and maintaining effective internal control over
financial reporting related to GWC. In planning and performing our fiscal year 2012 audit, we considered
FMS’ internal control over financial reporting related to GWC by obtaining an understanding of the design
effectiveness of FMS’ internal control related to GWC, determining whether internal controls related to
GWC had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the Schedules, but not for
the purpose of expressing an opinion on the effectiveness of FMS’ internal control over financial reporting
related to GWC. Accordingly, we do not express an opinion on the effectiveness of the FMS’ internal
control over financial reporting related to GWC. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting related to GWC was for the limited purpose
described in the third paragraph of this report and was not designed to identify all deficiencies in internal
control over financial reporting related to GWC that might be deficiencies, significant deficiencies, or
material weaknesses. In our fiscal year 2012 audit, we did not identify any deficiencies in internal control
over financial reporting related to GWC that we consider to be material weaknesses, as defined above.
However, we identified certain deficiencies in internal control over financial reporting related to GWC
described in Exhibit I that we consider collectively to be a significant deficiency in internal control over
financial reporting related to GWC. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.




                                                                  2
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
FMS’ written response to the significant deficiency identified in our audit is presented in a separate
Attachment to this report. FMS’ response was not subjected to auditing procedures applied in the audit of
the Schedules and, accordingly, we express no opinion on it.

Exhibit II presents the status of the prior year significant deficiency.

This report is intended solely for the information and use of Bureau of the Fiscal Service management, the
U.S. Department of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.




November 14, 2012




                                                        3
                                                                                              EXHIBIT I

                                  U.S. Department of the Treasury
                                   Financial Management Service
                    Schedules of Non-Entity Government-wide Cash (GWC)
              Significant Deficiency in Internal Control over Financial Reporting

Information Technology Controls Over Systems Managed by FMS and Third Parties (Repeat
Condition)

FMS relies on an extensive array of information technology (IT) systems to manage the Non-Entity
Government-wide Cash (GWC). Internal controls over these operations are essential to ensure the
integrity, confidentiality, and reliability of critical data while reducing the risk of errors, fraud, and
other illegal acts.

Our review of IT controls covered general and selected application controls over key systems
related to GWC. General controls are the structure, policies, and procedures that apply to an
entity’s overall computer systems. They include security management, access controls,
configuration management, segregation of duties, and contingency planning. Business process
application controls involve input, processing, and output controls related to specific IT
applications.

In fiscal year 2012, we noted that FMS made progress in several areas in its efforts to address this
finding. Despite these improvements, our tests revealed that the necessary policies and procedures
to detect and correct control and functionality weaknesses have not been consistently documented,
implemented, or enforced. FMS’ IT general controls do not provide reasonable assurance that:

    1. An adequate security management program is in place;

    2. Access to computer resources (i.e., data, equipment, and facilities) is reasonable and
       restricted to authorized individuals;

    3. Changes to information system resources are authorized and systems are configured and
       operated securely and as intended;

    4. Incompatible duties are effectively segregated; and,

    5. Contingency planning protects information resources, minimizes the risk of unplanned
       interruptions, and provides for recovery of critical operations should an interruption occur.

Collectively the conditions we observed and reported on could compromise FMS’ ability to ensure
security over sensitive financial data related to GWC and the reliability of key systems.

Because of the sensitivity of the information, we will issue a separate sensitive but unclassified
report to the Commissioner of the Bureau of the Fiscal Service detailing the conditions identified
and our recommendations for corrective action.

Management’s Response:

Management has prepared an official response presented as a separate attachment to this report.
Management agreed with our finding and their comments were responsive to our
recommendations.
                                                 4
                                                                                     EXHIBIT II
                              U.S. Department of the Treasury

                              Financial Management Service

                 Schedules of Non-Entity Government-wide Cash (GWC)

                       Status of Prior Year Significant Deficiency




                    Finding                                      Action       Action in
                                                                Complete      Progress


Information Technology Controls Over Systems Managed by                    Partially resolved
FMS and Third Parties (Repeat Condition)                                   and repeated as a
                                                                           significant
                                                                           deficiency for
                                                                           FY 2012




                                                5
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service (formerly Financial Management Service):

We have audited the Schedules of Non-Entity Government-Wide Cash (GWC) of the U.S. Department of
the Treasury’s Financial Management Service (FMS) as of September 30, 2012 and 2011 (hereinafter
referred to as the Schedules), and have issued our report thereon dated November 14, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain
reasonable assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for complying with laws and regulations applicable to the amounts
reflected in the Schedules. As part of obtaining reasonable assurance about whether the Schedules are free
of material misstatement, we performed tests of compliance with certain provisions of laws and regulations
related to GWC, noncompliance with which could have a direct and material effect on the determination of
the amounts reflected in the Schedules, and certain provisions of other laws and regulations specified in
OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws and regulations applicable to FMS. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance discussed in the previous paragraph, disclosed no instances of
noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of Bureau of the Fiscal Service management, the
U.S. Department of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.




November 14, 2012




                                                                 6
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                     U. S. DEPARTMENT OF THE TREASURY
                      FINANCIAL MANAGEMENT SERVICE

                   Schedules of Non-Entity Government-Wide Cash
                            September 30, 2012 and 2011

                                    (In Thousands)




                                                                    2012             2011

Non-entity government-wide cash
(Notes 1 and 2)                                             $    79,386,988    $   50,115,217




             The accompanying notes are an integral part of these Schedules.
                                          7
                           U. S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

                 Notes to the Schedules of Non-Entity Government-Wide Cash
                                 September 30, 2012 and 2011

                                         (In Thousands)


NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  A. Reporting Entity

     The Financial Management Service (FMS) is a bureau of the U. S. Department of the Treasury
     (Treasury). FMS’ mission is to improve the quality of the Federal Government’s financial
     management. FMS’ commitment and responsibility is to help its customers achieve success. FMS
     does this by linking program and financial management objectives and by providing financial
     services, information, advice, and assistance to its customers. FMS serves taxpayers, Treasury,
     federal program agencies, and government policy makers.

     The financial activities of FMS are affected by, and are dependent upon, those of the Treasury and
     the Federal Government as a whole. Thus, the accompanying schedules do not reflect the results of
     all financial decisions and activities applicable to FMS as if it were a stand-alone entity.

     Non-Entity accounts are those accounts that FMS holds but are not available to FMS in its
     operations. For example, FMS accounts for certain cash that the Federal Government collects and
     holds on behalf of the U.S. Government or other entities. These schedules include the Non-Entity
     government-wide cash accounts.

     On October 7, 2012, the Department of the Treasury bureaus formerly known as the Financial
     Management Service and the Bureau of the Public Debt were redesignated as the Bureau of the
     Fiscal Service.

  B. Basis of Accounting

     The standards used in the preparation of the accompanying schedules are issued by the Federal
     Accounting Standards Advisory Board, as the body authorized to establish generally accepted
     accounting principles for Federal Government entities. Accordingly, the accompanying schedules
     are prepared in accordance with U.S. generally accepted accounting principles.

     The accompanying schedules are different from the financial reports prepared by FMS pursuant to
     Office of Management and Budget directives that are used to monitor and control FMS’ use of
     budgetary resources.

  C. Non-entity Government-wide Cash

     Non-entity government-wide cash is held in depositary institutions or Federal Reserve accounts.
     Operating Cash of the U.S. Government represents balances from tax collections, customs duties,
     other revenue, federal debt receipts, and other various receipts net of cash outflows for budget
     outlays and other payments held in the Federal Reserve Banks, and foreign and domestic financial
     institutions. Outstanding checks are netted against operating cash until they are cleared by the
     Federal Reserve System.


                This information is an integral part of the accompanying Schedules.
                                                  8
                          U. S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

                  Notes to the Schedules of Non-Entity Government-Wide Cash
                                  September 30, 2012 and 2011

                                          (In Thousands)


  C. Non-entity Government-wide Cash (Continued)

     Federal agencies can deposit funds that are submitted to them directly into either a Federal Reserve
     Treasury General Account (TGA) or a local TGA depositary. The TGA is maintained at the
     Federal Reserve Bank of New York (FRBNY) and functions as the government’s checking account
     for deposits and disbursements of public funds. Tax payments are collected through the Electronic
     Federal Tax Payment System (EFTPS). In 2011, there were a few retainer Treasury Tax and Loan
     (TT&L) depositaries that held Non-entity Government-wide Cash in interest bearing accounts. In
     January 2012, Treasury eliminated retainer or investor depositaries from the TT&L program. Cash
     in the TGA is restricted for Government-wide operations. The balances in local TGA accounts are
     transferred to the FRBNY’s TGA at the end of each day.

     Other cash is mostly comprised of Automated Clearinghouse transfers, Fedwire transfers and U.S.
     currency held by the U.S. Department of State.

NOTE 2. NON-ENTITY GOVERNMENT-WIDE CASH

  Non-Entity Government-wide Cash includes the Operating Cash of the U.S. Government, managed by
  Treasury, and foreign currency maintained by various U.S. disbursing offices, at September 30, 2012
  and 2011, as follows:

                                                                          2012                2011
   Operating Cash of the U.S. Government:
   Held in Depository Institutions                               $         -           $     1,805,478
   Held in the Federal Reserve Account                                 85,445,838          56,284,268
   Subtotal                                                            85,445,838          58,089,746
   Outstanding Checks                                                 (6,250,698)          (8,277,444)
   Subtotal                                                            79,195,140          49,812,302
   Other Cash                                                             127,849              230,061
   Subtotal                                                            79,322,989          50,042,363
   Foreign Currency                                                        63,999               72,854
   Total                                                         $     79,386,988      $   50,115,217


  Operating Cash of the Federal Government held by depositary institutions is either insured (for
  balances up to $250,000) by the U.S. Federal Deposit Insurance Corporation (FDIC) or collateralized
  by the depositary institution, or through securities held under reverse repurchase agreements.




                 This information is an integral part of the accompanying Schedules.
                                                   9
